HHS/OIG-AUDIT--Hospice Eligibility at the Family Hospice of Dallas (A-06-95-00095)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"OPERATION RESTORE TRUST:  Review of Hospice Eligibility at the Family
Hospice of Dallas," (A-06-95-00095)
January 17, 1996
Complete
Text of Report is available in PDF format (420K). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides you with the results of our audit of Medicare hospice beneficiary
eligibility determinations at the Family Hospice of Dallas (FHD) in Dallas, Texas.
This audit was part of Operation Restore Trust (ORT), a joint initiative among
various Department of Health and Human Services components. The ORT seeks to identify
specific vulnerabilities in the Medicare program and pursue ways to reduce Medicare's
exposure to abusive practices.
The objective of our review was to evaluate hospice eligibility determinations
for beneficiaries that remained in hospice care for more than 210 days. We also
determined the amount of payments made to the Family Hospice of Dallas (FHD) for
those Medicare beneficiaries that did not meet the Medicare reimbursement requirements.
Our review included a medical evaluation of FHD's eligibility determinations for
60 Medicare beneficiaries who had been in hospice care for more than 210 days.
Of the 60 cases, 26 were active in hospice at the time of our review and represent
20 percent of the 133 patients who were active Medicare hospice beneficiaries at
FHD as of September 7, 1995. The review showed that:
20 beneficiaries were not eligible for hospice coverage at the time of admission,
and
medical records for 2 other beneficiaries were insufficient to conclusively
determine a life expectancy of 6 months or less, as required by the Medicare
program.
Our medical determinations were made by physicians who were consultants to the
Texas Medical Foundation, the Texas Peer Review Organization (PRO). As part of
their initial review, all 22 cases, which were found ineligible or inconclusive,
have been reviewed by staff from the fiscal intermediary, Palmetto Government Benefits
Administrators (PGBA). The PGBA agreed with the PRO's decisions.
We believe the identified discrepancies with the 20 beneficiaries occurred due
to inaccurate prognoses of life expectancy by hospice physicians based on the medical
evidence in the patients' files. For the two other questionable beneficiaries,
we believe the evidence in the medical files was not sufficient to permit a determination
of eligibility. The FHD received Medicare payments for hospice services totaling
$973,094 for 20 ineligible patients and $69,648 related to the 2 beneficiaries
for whom we were unable to determine that a terminal illness existed at the time
of admission to the hospice.
We are recommending that the intermediary:
Recover payments of $973,094 for the 20 beneficiaries who were not eligible
for Medicare hospice benefits. Recover payments made on behalf of ineligible
beneficiaries after September 7, 1995.
Conduct medical reviews of the two cases for which we were unable to conclusively
determine whether the beneficiary was terminally ill. Based on the results of
these reviews, take appropriate action to recover amounts ($69,648) determined
to be overpayments.
Coordinate with the Health Care Financing Administration (HCFA) in providing
training to hospice providers and physicians on eligibility requirements for
hospice beneficiaries, particularly the requirement for a 6-month prognosis.
Analyze utilization trends to identify hospices with large increases in claims
for beneficiaries with over 210 days of hospice coverage and conduct medical
reviews on a sample of their claims.
Conduct periodic reviews of hospice claims to ensure the hospices are obtaining
sufficient medical information to make valid eligibility determinations.
The intermediary responded to a draft of this audit report on November 18, 1996.
The intermediary officials have reviewed information that we provided and they
concur with the eligibility determinations made by the PRO physicians. However,
they stated that they would be reluctant to recover payments. These officials believe
that the beneficiary would be held liable in these situations and HCFA had instructed
them to educate providers rather than deny services for the time period in question.
The intermediary officials stated that hospice data is currently included in the
intermediary's focused medical review data analysis process and its education department
regularly conducts education workshops on eligibility requirements for hospice
providers and physicians.
We will be working with HCFA on the beneficiary liability issue and the recovery
of overpayments from the hospice.